Audit Report




OIG-11-075
SAFETY AND SOUNDNESS: Material Loss Review of First
Security National Bank
June 10, 2011




Office of
Inspector General
Department of the Treasury
 
Contents



Memorandum for the Acting Comptroller of the Currency


Section I   Crowe Horwath LLP’s Report on the Material Loss Review of
            First Security National Bank


Section II Report Distribution
This page intentionally left blank.
                                           DEPARTMENT OF THE TREASURY
                                                  W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                      June 10, 2011




            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                      Susan Barron /s/
                                       Director, Banking Audits

            SUBJECT:                   Material Loss Review of First Security National Bank


            INTRODUCTION

            The Office of the Comptroller of the Currency (OCC) closed First Security National
            Bank (First Security), Norcross, Georgia, and appointed the Federal Deposit
            Insurance Corporation (FDIC) as receiver on December 04, 2009. As of March 31,
            2011, FDIC estimated that First Security’s loss to the Deposit Insurance Fund was
            $35.4 million.

            Under section 38(k) of the Federal Deposit Insurance Act, we are responsible for
            conducting a material loss review of the failure of First Security. 1 To help fulfill this
            responsibility, we contracted with Crowe Horwath LLP, an independent certified
            public accounting firm. Crowe Horwath’s report dated May 18, 2011, is provided
            as Section I.

            RESULTS OF MATERIAL LOSS REVIEW

            We concur with Crowe Horwath’s reported conclusions regarding First Security’s
            causes of failure and OCC’s supervision of First Security:

                •   First Security failed primarily because of (1) loan losses resulting from the
                    bank’s concentration in residential acquisition, development and
                    construction (ADC) and land loans; and (2) the significant decline in the
                    Atlanta real estate market. The bank’s Board of Directors and management

            1
              At the time of the failure of First Security, section 38(k) defined a loss as material if it exceeded
            the greater of $25 million or 2 percent of the institution’s total assets. Effective July 21, 2010,
            section 38(k defines a loss as material if it exceeds $200 million for calendar years 2010 and 2011,
            $150 million for calendar years 2012 and 2013, and $50 million for calendar years 2014 and
            thereafter (with a provision that the threshold be raised temporarily to $75 million under certain
            conditions).
Page 2

       made a strategic decision to increase its concentration in ADC lending
       beginning in 2006. First Security’s strategy of substantially increasing ADC
       loans without managing commensurate risk left the bank vulnerable to
       diminishing asset quality and future losses tied to fluctuations in the real
       estate market. Starting in mid- to late 2007, metro Atlanta began to
       experience a severe decline in the residential real estate market and First
       Security experienced deterioration in loan quality. Also, First Security was
       heavily reliant on alternative funding sources, specifically brokered deposits.
       As the condition of the bank deteriorated, First Security faced restrictions
       on its acceptance of brokered deposits. First Security was unable to
       maintain adequate capital levels to sustain its losses, which ultimately
       resulted in the bank’s failure.

   •   OCC’s supervision of First Security did not prevent a material loss to the
       Deposit Insurance Fund. However, OCC’s supervision of First Security was
       adequate and the appropriate issues were identified by OCC; these issues
       were identified in a timely manner, and appropriate supervisory actions were
       taken. As a result, the material loss review of this failure did not identify any
       recommendations for OCC.

Details of Crowe Horwath’s conclusions are in their report.

OBJECTIVES, SCOPE, AND METHODOLOGY

Under section 38 (k), we are responsible to prepare a report to OCC that
(1) ascertains why First Security’s problems resulted in a material loss to the
Deposit Insurance Fund; (2) reviews OCC’s supervision of the institution, including
its implementation of the prompt corrective action provisions of section 38(k); and
(3) makes recommendations for preventing any such loss in the future.

To help fulfill this responsibility, we contracted with Crowe Horwath to perform a
material loss review in accordance with generally accepted government auditing
standards. We evaluated the nature, extent, and timing of the work; monitored
progress throughout the audit; reviewed the documentation of Crowe Horwath;
met with partners and staff members; evaluated the key judgments; met with OCC
officials; performed independent tests of OCC supervisory records; and performed
other procedures we deemed appropriate in the circumstances. We conducted our
work in accordance with generally accepted government auditing standards.

Should you wish to discuss the report, you may contact me at (202) 927-5776.
This page intentionally left blank.
                     Section I

        Crowe Horwath LLP’s Report on the
Material Loss Review of First Security National Bank
This page intentionally left blank.
       First Security National Bank
           Material Loss Review
Safety and Soundness Performance Audit
              June 10, 2011
 
 
 
 


Contents
Crowe Horwath LLP Audit Report ............................................................ 1
Results in Brief .........................................................................................................2
    Causes of First Security National Bank’s Failure ......................................................2
             Concentrations of Residential ADC and Land Loans .........................................3
             Significant Downturn in the Atlanta and National Real Estate Markets ...............5
             Extensive Reliance on Non-Core Funding........................................................6

    OCC’s Supervision of First Security ........................................................................7
             PCA Used Appropriately ..............................................................................8

Appendices

    Appendix     1:   Objectives, Scope, and Methodology .................................................. 10
    Appendix     2:   Background ..................................................................................... 13
    Appendix     3:   Glossary of Terms ............................................................................ 18
    Appendix     4:   OCC’s Response .............................................................................. 21

Abbreviations

    ADC                   Acquisition, Development and Construction
    ALLL                  Allowance for Loan and Lease Losses
    Board                 Board of Directors
    CRE                   Commercial Real Estate
    FDIC                  Federal Deposit Insurance Corporation
    MRA                   Matter Requiring Attention
    OCC                   Office of the Comptroller of the Currency
    OIG                   Office of Inspector General
    OREO                  Other Real Estate Owned
    PCA                   Prompt Corrective Action
    ROE                   Report of Examination
    TARP                  Troubled Asset Relief Program




                          Material Loss Review of First Security National Bank                             Page i
 




    Material Loss Review of First Security National Bank   Page 1
Results in Brief
          First Security failed primarily because of (1) loan losses resulting from
          the bank’s concentration in residential acquisition, development and
          construction (ADC) and land loans; and (2) the significant decline in
          the Atlanta real estate market. The bank’s Board of Directors (Board)
          and management made a strategic decision to increase its
          concentration in ADC lending beginning in 2006. First Security’s
          strategy of substantially increasing ADC loans without managing
          commensurate risk left the bank vulnerable to diminishing asset quality
          and future losses tied to fluctuations in the real estate market.
          Starting in mid- to late 2007, metro Atlanta began to experience a
          severe decline in the residential real estate market and First Security
          experienced deterioration in loan quality. Also, First Security was
          heavily reliant on alternative funding sources, specifically brokered
          deposits. As the condition of the bank deteriorated, First Security
          faced restrictions on its acceptance of brokered deposits. First
          Security was unable to maintain adequate capital levels to sustain its
          losses, which ultimately resulted in the bank’s failure.

          OCC’s supervision of First Security did not prevent a material loss to
          the Deposit Insurance Fund. However, our audit found that OCC’s
          supervision of First Security was adequate and that the appropriate
          issues were identified by OCC; these issues were identified in a timely
          manner, and appropriate supervisory actions were taken. As a result,
          our material loss review of this failure did not identify any
          recommendations for OCC.


Causes of First Security National Bank’s Failure
          First Security failed because of significant loan delinquencies and
          losses incurred on ADC and land loans. First Security’s Board and
          management made a strategic decision to increase its existing
          concentration of ADC and land loans, a form of commercial real estate
          (CRE) lending, in the Atlanta area beginning in 2006. The Board and
          management failed to establish specific concentration limits for CRE
          loans. These loans were concentrated in the greater Atlanta area,
          which subsequently experienced severe real estate market declines.
          First Security was heavily reliant on alternative funding sources,
          specifically brokered deposits. Losses resulting from these higher-risk
          loans created a capital deficiency that prompted the OCC to close the
          bank in late 2009.




                Material Loss Review of First Security National Bank         Page 2
               Concentrations of Residential ADC and Land Loans

               OCC defines a concentration as a group of similar types of assets or
               liabilities that, when aggregated, exceeds 25 percent of a bank’s risk-
               based capital (core capital plus allowance for loan and lease losses
               (ALLL)). 1 Concentrations pose risk to an institution because negative
               events affecting overly concentrated groups of assets can have a
               highly detrimental impact on the institution. First Security maintained
               high concentrations in ADC and land loans in its portfolio.

               First Security’s Board and management’s business plan resulted in the
               heavy concentration of residential ADC and land loans. At one point
               during 2006, ADC and land loans reached more than 600 percent of
               capital. Although the concentration was reduced in 2008 as a result
               of repayments and increases in foreclosure activity, which shifted
               loans to the Other Real Estate Owned (OREO) category, it remained
               significant at 323 percent of capital.

               OCC examiners identified concentration issues as early as 2001,
               noting enhancements were needed in concentration reporting and
               identification. During examinations conducted during 2003 and 2004,
               OCC examiners recommended that First Security improve its
               concentration risk management, credit administration, and ALLL
               methodology. Subsequently, in its 2006 report of examination (ROE),
               examiners recommended that the Board establish more specific
               internal concentration of credit limits for significant exposures and that
               concentration reports show the existing level of each concentration
               compared to the Board limits. However, no specific reductions in the
               concentration were required as a result of the ROE as OCC felt that
               concentration management had improved, the opening of new
               branches would help facilitate diversifying the bank’s loan portfolio,
               and capital levels remained strong relative to the bank’s overall risk
               profile.

               OCC provides guidance to examiners as to when institutions’ CRE loan
               assets reach concentration levels representing concentration risk
               requiring further analysis. 2 Such institutions are those for which:

                      total reported loans for construction, land development, and
                       other land represent 100 percent or more of the institution’s
                       total capital; or


1
    OCC Comptroller’s Handbook, Concentration of Credits (March 1990)

2
 OCC Bulletin 2006-46 and Concentrations in Commercial Real Estate Lending, Sound Risk
Management Practices (December 6, 2006)

                       Material Loss Review of First Security National Bank        Page 3
      total CRE        loans represent 300 percent or more of the
       institution’s     total capital, and the outstanding balance of the
       institution’s    CRE loan portfolio has increased by 50 percent or
       more during      the prior 36 months.

Although OCC guidance does not provide quantifiable limits on banks’
CRE lending, it does describe risk management practices an institution
is expected to have in place to pursue CRE lending in a safe and sound
manner. According to the guidance, institutions should address the
following key elements in establishing a risk management framework
that effectively identifies, monitors, and controls CRE concentration
risk:

      board and management oversight
      portfolio management
      management information systems
      market analysis
      credit underwriting standards
      portfolio stress testing and sensitivity analysis
      credit risk review function

However, by the time the guidelines were established in December,
2006, First Security’s residential ADC and land lending had reached
562 percent of capital. Figure 1 illustrates First Security’s ADC and
land loans as a percentage of total capital compared to its peer group.

Figure 1. First Security’s ADC and Land Loans as a Percentage of Total Capital
Compared to Its Peer Group
   700.0%

  600.0%

  500.0%

  400.0%

  300.0%                                                         First Security Bank
                                                                 Peer Group
  200.0%

  100.0%

    0.0%
            December     December      December     September 
              2006         2007          2008          2009


                         Source: Uniform Bank Performance Reports

Beginning in 2007, First Security began to experience a decline in
asset quality related to the concentration in residential ADC and land

       Material Loss Review of First Security National Bank                     Page 4
loans.    As a result of deteriorating asset quality, First Security
experienced significant increases in its level of past due and non-
accrual loans and then increases in its OREO as the past due and non-
accrual loans went into foreclosure. Figure 2 highlights the increase in
past due and non-accrual loans from the end of 2007 to the middle of
2008 and the subsequent increases in OREO.

Figure 2. Summary of Past Due/Non-accrual and OREO by Quarter from December
31, 2007 through September 30, 2009

  $40,000,000
  $35,000,000
  $30,000,000
  $25,000,000
  $20,000,000
  $15,000,000                                                OREO

  $10,000,000                                                Total Past Due/Nonaccrual
   $5,000,000
          $0




            Source: Federal Deposit Insurance Corporation (FDIC) call reports

The increase of past due and non-accrual loans resulted in significant
loan losses.      Bad debt expense totaled $1,549,000 in 2007,
$3,076,000 in 2008 and $4,788,000 in the 9 months ended
September 30, 2009. These loan losses significantly diminished
earnings and resulted in inadequate capital, and ultimately, the failure
of First Security.


Significant Downturn in the Atlanta and National Real Estate Markets

First Security’s loans were concentrated within its marketplace in the
Atlanta metropolitan area. The Atlanta residential real estate market
peaked and began to depreciate in value beginning in 2007. As the
residential real estate values depreciated significantly, the bank’s
concentration in residential ADC and land lending could not be
overcome by management. The residential real estate values
depreciated to a level well beyond that anticipated by management or
the Board. The bank did not have sufficient capital to absorb the
losses that resulted from the bank’s increase in troubled loans
resulting from the downturn in the Atlanta real estate market.


      Material Loss Review of First Security National Bank                      Page 5
Extensive Reliance on Non-Core Funding

First Security relied on alternative funding sources extensively. During
2007, 22 percent of its deposits were derived from non-core funding
sources, specifically brokered deposits. The bank relied on non-core
funding to expand its residential ADC portfolio. As shown in Figure 3,
First Security relied extensively more on brokered deposits as a
percentage of total deposits than its peers.

Figure 3: First Security’s Brokered Deposits as a Percentage of Total Deposits
Compared to Its Peer Group
   25.0%


   20.0%


   15.0%

                                                              First Security Bank
   10.0%
                                                              Peer Group

    5.0%


    0.0%
            December  December  December  September 
              2006      2007      2008      2009

                         Source: Uniform Bank Performance Reports

OCC included in its ROE dated October 16, 2008 a matter requiring
attention (MRA) directing the Board to finalize a plan to protect
existing capital. The examiners concluded that liquidity was a growing
concern as access to funds was becoming more difficult given First
Security’s financial condition. Another MRA directed management to
ensure the availability of sufficient liquidity to meet planned and
unplanned demands for funds, increase monitoring efforts, and analyze
the likely timing and cause of liquidity depletion.

In addition, on November 18, 2008, the Board entered into a consent
order with OCC, which required, among other things, the bank to
maintain a total risk-based capital ratio of 13 percent and a leverage
ratio of 9 percent; develop and submit to OCC 3-year capital and
strategic plans; and increase the bank’s liquidity to a level sufficient to
sustain operations. The consent order stated that the imposition of
the higher capital levels meant that First Security could not be deemed
to be well-capitalized for PCA purposes. As a result, First Security



       Material Loss Review of First Security National Bank                   Page 6
               was restricted from accepting or renewing brokered deposits. 3 The
               restrictions on brokered deposits combined with depositor withdrawals
               further strained the liquidity of First Security.

               First Security’s financial condition continued to deteriorate, leading to
               the bank becoming undercapitalized as of March 31, 2009, and
               critically undercapitalized as of September 30, 2009. As a result, First
               Security was closed on December 4, 2009.


OCC’s Supervision of First Security
               OCC’s supervision of First Security did not prevent a material loss to
               the Deposit Insurance Fund. However, based upon our audit work, we
               concluded that OCC’s supervision of First Security was adequate. We
               have noted no actions that should have been taken by OCC that
               would have decreased the loss to the Deposit Insurance Fund in any
               significant manner.      Our review of OCC’s ROEs and related
               workpapers and interviews with OCC and FDIC officials indicate that
               OCC identified issues in a timely manner, and used appropriate
               enforcement actions.         Ultimately, the bank’s ADC lending
               concentration coupled with the rapid and significant decline in
               residential real estate values within the bank’s market area caused
               severe losses that resulted in the bank’s failure.

               OCC identified First Security’s concentration risk as early as 2001 and
               provided a number of comments in several ROEs related to enhancing
               the monitoring and management of concentration risk. In addition, a
               targeted examination was conducted related to CRE lending prior to
               the next scheduled full scope examination during 2008 which timely
               identified the increased credit risks and resulted in a consent order
               being issued in November 2008.

               Concerns related to liquidity and funding risks were also identified
               timely. Among other things, OCC imposed minimum capital ratio
               requirements in the consent order. As a result, the bank became less
               than well-capitalized, which in turn, placed restrictions on the bank’s
               use of brokered deposits. In turn, these restrictions prevented any
               further reliance on the use of brokered deposits and reduced the
               origination of additional loans, which ultimately, while this is
               somewhat speculative, we believe minimized the loss to the Deposit
               Insurance Fund.



3
  An institution that falls from well capitalized is prohibited from accepting or renewing brokered
deposits under 12 CFR 337.6 and may be subject to other supervisory action.

                      Material Loss Review of First Security National Bank                  Page 7
Table 1 summarizes OCC’s examinations of First Security and its
related enforcement actions from 2006 through 2009. Generally,
MRAs represent the most significant items reported.

Table 1. Summary of OCC’s Examinations and Enforcement Actions for First Security
                                                 Examination Results
                                                      Number of
                                 CAMELS     Number of corrective             Enforcement
 Date started    Exam Type        rating      MRAs      actions                actions

 4/24/2006       Full Scope     2/122121       None            None   None


 10/24/2007      Full Scope     2/132121         3             12     None


 6/10/2008      Targeted CRE    4/443532         6              -     Consent order

                                                                      None (consent order still
 3/31/2009       Full Scope     5/555542         7              7
                                                                      in place)
                Source: OCC ROEs and enforcement actions


PCA Used Appropriately

The purpose of PCA is to resolve the problems of insured depository
institutions at the least possible long-term loss to the Deposit
Insurance Fund. According to PCA requirements, federal banking
agencies are to take certain actions when an institution’s capital drops
to certain levels. Under PCA, regulators also have flexibility to
discipline institutions based on criteria other than capital levels to help
reduce deposit insurance losses caused by unsafe and unsound
practices.

We concluded that OCC appropriately used its authority under PCA in
accordance with PCA requirements as follows:

       First Security’s capital levels fell to undercapitalized on
        March 31, 2009, based on the bank’s call report. OCC issued a
        PCA notification letter dated May 1, 2009, informing First
        Security of its undercapitalized status and required a Capital
        Restoration Plan by May 15, 2009. First Security submitted a
        Capital Restoration Plan to OCC on May 15, 2009, in
        accordance with the PCA notification letter.

       On July 8, 2009 OCC rejected First Security’s Capital
        Restoration Plan given that the execution of a definitive
        agreement and a confirmation of the availability of the funds
        had not occurred. OCC also notified the bank that it was
        subject to the restrictions applicable to significantly
        undercapitalized banks pursuant to PCA due to the failure of the
        bank to submit an acceptable capital restoration plan.


        Material Loss Review of First Security National Bank                          Page 8
      First Security became critically undercapitalized based on the
       filing of its September 30, 2009, call report. OCC issued a PCA
       notification letter dated November 16, 2009, informing First
       Security of its critically undercapitalized status and required
       another Capital Restoration Plan to be submitted as the previous
       plan was disapproved.

Despite OCC’s timely identification of issues and appropriate use of
enforcement actions, First Security’s lending concentration coupled
with the rapid and significant decline in the bank’s market area caused
severe losses. As a result, First Security was placed into receivership
and closed by OCC on December 4, 2009.




       Material Loss Review of First Security National Bank      Page 9
Appendix 1
Objectives, Scope and Methodology



               Our objectives were to determine the causes of First Security National
               Bank’s (First Security) failure and assess its supervision by the Office of
               the Comptroller of Currency (OCC). We conducted this material loss
               review of First Security under contract with the Department of the
               Treasury Office of Inspector General (OIG) in response to its mandate
               under section 38(k) of the Federal Deposit Insurance Act.4 This section
               provides that if a deposit insurance fund incurs a material loss with
               respect to an insured depository institution, the inspector general for
               the appropriate federal banking agency is to prepare a report to the
               agency that:

                      ascertains why the institution’s problems resulted in a material
                       loss to the insurance fund;
                      reviews the agency’s supervision of the institution, including its
                       implementation of the prompt corrective action (PCA) provisions
                       of section 38; and
                      makes recommendations for preventing any such loss in the
                       future.

               At the time of First Security’s failure, section 38(k) defined a loss as
               material if it exceeds the greater of $25 million or 2 percent of the
               institution’s total assets. The law requires the inspector general to
               complete the report within 6 months after it becomes apparent that a
               material loss has been incurred.

               The OIG contracted with our firm to conduct this material loss review
               of First Security based on the loss estimate by the Federal Deposit
               Insurance Corporation (FDIC). As of March 31, 2011, the loss
               estimate was $35.4 million.

               To accomplish our review, we conducted fieldwork off-site and at a
               FDIC regional office. We also interviewed personnel within the OCC
               Field Office; the OCC District Office; the OCC Special Supervision
               Division; the FDIC Regional Office; the FDIC Division of Resolutions and
               Receiverships; and the FDIC Division of Supervision and Consumer
               Protection. We conducted our fieldwork from March 2010 through
               May 2010.

               To assess the adequacy of OCC’s supervision of First Security, we
               determined (1) when OCC first identified the bank’s safety and
               soundness problems, (2) the gravity of the problems, and (3) the

4
  P.L. 111-203, enacted on July 21, 2010, changed the definition of material loss in section 38(k)
to any estimated loss in excess of $200 million for a loss occurring in 2010 and 2011, $150 million
for a loss occurring in 2012 and 2013, and $50 million for a loss occurring in 2014 or after (with a
provision for a temporary increase to $75 million if certain conditions are met).

                       Material Loss Review of First Security National Bank                  Page 10
Appendix 1
Objectives, Scope and Methodology



               supervisory response OCC took to get the bank to correct the
               problems. We also assessed whether OCC (1) might have discovered
               problems earlier; (2) identified and reported all the problems; and
               (3) issued comprehensive, timely, and effective enforcement actions
               that dealt with any unsafe or unsound activities. Specifically, we
               performed the following work:

                      We determined that the period covered by our audit would be
                       from OCC’s examination starting on April 24, 2006, through the
                       bank’s failure on December 4, 2009.

                      We reviewed OCC’s supervisory files and records for First
                       Security from 2006 through 2009. We analyzed examination
                       reports, supporting workpapers, and related supervisory and
                       enforcement correspondence. We performed these analyses to
                       gain an understanding of the problems identified, the approach
                       and methodology OCC used to assess the bank’s condition, and
                       the regulatory action used by OCC to compel bank management
                       to address deficient conditions.

                      We interviewed and discussed various aspects of the
                       supervision of the bank with OCC officials and examiners to
                       obtain their perspectives on the bank’s condition and the scope
                       of the examinations. We also interviewed FDIC officials who
                       were responsible for monitoring First Security for federal deposit
                       insurance purposes.

                      We selectively reviewed First Security’s documents that had
                       been taken by FDIC and inventoried by FDIC Division of
                       Resolutions and Receivership personnel. We identified from
                       FDIC’s inventory list those documents for our review that were
                       most likely to shed light on the reasons for the bank’s failure
                       and OCC’s supervision of the institution.

                      We assessed OCC’s actions based on its internal guidance and
                       the requirements of the Federal Deposit Insurance Act, as
                       amended by 12 U.S.C. § 1820(d).

               We conducted this performance audit in accordance with generally
               accepted government auditing standards. Those standards require
               that we plan and perform the audit to obtain sufficient, appropriate
               evidence to provide a reasonable basis for our findings and
               conclusions based on our audit objectives. We believe that the



                       Material Loss Review of First Security National Bank       Page 11
Appendix 1
Objectives, Scope and Methodology



               evidence obtained provides a reasonable basis for our findings and
               conclusions based on our audit objectives.




                       Material Loss Review of First Security National Bank   Page 12
Appendix 2
Background



First Security’s National Bank History
             First Security National Bank (First Security) was established as a
             federally-chartered commercial bank on June 25, 1985, and opened its
             first branch in Norcross, Georgia. First Security was a wholly owned
             subsidiary of First Security Corporation and operated four banking
             locations in the greater Atlanta area, including Cumming, Georgia;
             Canton, Georgia; and Atlanta, Georgia. The home office was in
             Norcross, Georgia.

             First Security’s business model focused on construction development
             and high-end residential construction.      During strong real estate
             markets, this lending concentration resulted in reliable profits.
             However, beginning in early 2007, foreclosures overwhelmed
             Atlanta’s real estate market and First Security’s asset quality began to
             deteriorate rapidly. By June 2008, asset quality, capital levels, and
             earnings had deteriorated to such a degree that the Office of the
             Comptroller of the Currency (OCC) downgraded First Security’s
             composite rating to a 4, and in November 2008 issued a consent order
             to the bank.

             In December 2008, First Security engaged a consulting group to help
             find an investor or a merger/acquisition partner. Various commercial
             banks expressed interest in acquiring First Security pending the
             availability of financial funds, including approval of funds under
             Treasury’s Troubled Asset Relief Program (TARP).            However no
             definitive agreement was reached and First Security’s application for
             TARP funds was also denied in December 2008. During this time, the
             bank’s total available liquidity was $6-8 million, including a borrowing
             agreement with the Federal Reserve Bank of Atlanta. Agreements
             with other correspondent banks had been terminated.

             On January 12, 2009, First Security submitted a plan to raise
             $5 million in capital by March 31, 2009, or merge with another
             financial institution. However, this deadline passed and the bank fell
             below well capitalized. On May 15, 2009, First Security submitted a
             new Capital Restoration Plan, which OCC rejected as impractical on
             July 8, 2009. In September 2009, the FDIC began preparations for
             receivership. On December 4, 2009, OCC closed the bank.

             Types of Examinations Conducted by OCC

             OCC conducts various types of examinations, including safety and
             soundness, compliance, and information technology.


                   Material Loss Review of First Security National Bank       Page 13
Appendix 2
Background



             OCC conducts full-scope examinations of insured banks once every 12
             or 18 months. During a full-scope examination, examiners conduct an
             onsite examination and rate all CAMELS components. OCC then
             assigns the bank a CAMELS composite rating based on its assessment
             of the overall condition and level of supervisory concern.

             OCC uses the 12-month cycle until the bank’s management has
             demonstrated its ability to operate the institution in a safe and sound
             manner and has satisfied all conditions imposed at the time of its
             charter approval.     The 18-month examination interval applies to
             insured banks that have total assets of $500 million or less that:
             received a CAMELS composite rating of 1 or 2 and a Compliance
             rating of 1 or 2 for their most recent examination; received a CAMELS
             management component rating of 1 or 2 for their most recent
             examination; are well-capitalized; are not currently subject to a formal
             enforcement proceeding or order by OCC or the Federal Deposit
             Insurance Corporation; and have not undergone a change in control
             during the 12-month period since completion of the last full-scope
             examination.

             Enforcement Actions Available to OCC

             OCC performs various examinations of banks that result in the
             issuance of reports of examinations identifying areas of concern. OCC
             uses informal and formal enforcement actions to address violations of
             laws and regulations and to address unsafe and unsound practices.

             Informal Enforcement Actions

             When a bank’s overall condition is sound, but it is necessary to obtain
             written commitments from a bank’s board of directors or management
             to ensure that it will correct identified problems and weaknesses, OCC
             may use informal enforcement actions. OCC may use informal actions
             for problems in well- or adequately-capitalized banks and banks with a
             composite rating of 1, 2, or 3. However, in the case of a 3-rated
             bank, there is a presumption for use of a formal enforcement action
             for a bank with weak management or a less than satisfactory
             management rating, and where there is uncertainty as to whether
             management and the board have the ability and the willingness to take
             appropriate corrective measures.

             Informal actions notify a bank’s board and management that OCC has
             identified problems that warrant attention. A record of informal action
             is beneficial in case formal action is necessary later.

                   Material Loss Review of First Security National Bank       Page 14
Appendix 2
Background




             If a bank violates or refuses to comply with an informal action, OCC
             cannot enforce compliance in federal court or assess civil money
             penalties for noncompliance. However, OCC may initiate more severe
             enforcement action against a noncompliant bank. The effectiveness
             of informal action depends in part on the willingness and ability of a
             bank to correct deficiencies that OCC notes.

             Informal enforcement actions include supervisory              directives,
             memoranda of understanding, and board resolutions.

             Formal Enforcement Actions

             If informal tools do not resolve a problem that has been identified,
             OCC is to use formal enforcement tools.

             Formal enforcement actions are enforceable under the Federal Deposit
             Insurance Act. They are appropriate when a bank has significant
             problems, especially when there is a threat of harm to the bank,
             depositors, or the public. OCC is to use formal enforcement actions
             when informal actions are considered inadequate, ineffective, or
             otherwise unlikely to secure correction of safety and soundness or
             compliance problems.

             OCC can assess civil money penalties against banks and individuals
             for noncompliance with a formal agreement or final orders. OCC can
             also request a federal court to require the bank to comply with an
             order. Unlike informal actions, formal enforcement actions are public.

             Formal enforcement actions include cease and desist orders, civil
             money penalties, and prompt corrective action directives.

             OCC Enforcement Guidelines

             Considerations for determining whether to use informal action or
             formal action include:

                   the extent of actual or potential damage, harm, or loss to the
                    bank because of the action or inaction;

                   whether the bank has repeated the illegal action or unsafe or
                    unsound practice;

                   the likelihood that the conduct may occur again;

                    Material Loss Review of First Security National Bank       Page 15
Appendix 2
Background




                    the bank’s record for taking corrective action in the past;

                    the capability, cooperation, integrity, and commitment of the
                     bank’s management, board of directors, and ownership to
                     correct identified problems;

                    the effect of the illegal, unsafe, or unsound conduct on other
                     financial institutions, depositors, or the public;

                    the examination rating of the bank;

                    whether the bank’s condition is improving or deteriorating; and

                    the presence of unique circumstances.


             OCC Assessments Paid by First Security

             OCC funds its operations in part through semiannual assessments on
             national banks. OCC publishes annual fee schedules, which include
             general assessments to be paid by each institution based on the
             institution’s total assets. If the institution is a problem bank (i.e., it
             has a CAMELS composite rating of 3, 4, or 5), OCC also applies a
             surcharge to the institution’s assessment to cover additional
             supervisory costs. These surcharges are calculated by multiplying the
             sum of the general assessment by 50 percent for 3-rated institutions
             or by 100 percent for 4- and 5-rated institutions. Table 2 shows the
             assessments that First Security paid to OCC from July 2006 through
             2009.

                       Table 2: Assessments Paid by First Security to OCC, 2006–2009
              Billing Period                 Exam Ratings         Amount Paid   % of Total
                                                                                Collection
              7/1/2006–12/31/2006                   2               $29,318      .009%
             N1/1/2007–6/30/2007                    2               $32,398      .009%
             u7/1/2007–12/31/2007                   2               $29,916      .009%
             m1/1/2008–6/30/2008                    4               $28,260      .008%
             b7/1/2008–12/31/2008                   4               $28,483      .008%
             e1/1/2009–6/30/2009                    5               $55,940      .014%
              7/1/2009–12/4/2009                    5               $53,812      .014%
             o




                     Material Loss Review of First Security National Bank              Page 16
Appendix 2
Background



             Number of OCC Staff Hours Spent Examining First Security

             Table 3 shows the number of OCC staff hours spent examining First
             Security from 2006 to 2009.

                 Table 3: Number of OCC Hours Spent on Examining First Security, 2005-2009

              Examination Start Date          Type of Examination           Number of Examination Hours
                     4/24/2006                    Full-scope                          502
                    10/24/2007                    Full-scope                          680
                     6/10/2008                     Targeted                           592
                     3/31/2009                    Full-scope                          865

             Source: OCC
             *Hours are totaled for safety and soundness examinations, information technology
             examinations, and compliance examinations and do not include time spent performing off-site
             monitoring.




                     Material Loss Review of First Security National Bank                       Page 17
Appendix 3
Glossary of Terms



                Allowance for An estimate of uncollectible amounts that is used to
                loan and      reduce the book value of loans and leases to the
                lease loss    amount that is expected to be collected.             It is
                              established in recognition that some loans in the
                              institution’s overall loan and lease portfolio will not be
                              repaid.

                Board             A document designed to address one or more specific
                resolution        concerns identified by the Office of the Comptroller of
                                  the Currency (OCC) and adopted by a bank’s board of
                                  directors.

                Brokered          Any deposit that is obtained, directly or indirectly,
                deposit           from a deposit broker. The bank or bank solicits
                                  deposits by offering rates of interest that are
                                  significantly higher than the rates offered by other
                                  insured depository institutions in its normal market
                                  area. Use of brokered deposits is limited to well-
                                  capitalized insured depository institutions and, with a
                                  waiver     from   the   Federal    Deposit    Insurance
                                  Corporation, to adequately capitalized institutions.
                                  Undercapitalized institutions are not permitted to
                                  accept brokered deposits. (See 12 U.S.C. § 1831(f)
                                  and 12 C.F.R. 337.6.)

                CAMELS            C - Capital adequacy
                                  A - Asset quality
                                  M - Management quality
                                  E - Earnings
                                  L - Liquidity
                                  S - Sensitivity to Market Risk

                                  Bank supervisory authorities assign each bank a rating
                                  on a scale of one (best) to five (worst) for each factor.
                                  If a bank has a composite rating less than two it is
                                  considered to be a high-quality institution, while banks
                                  with ratings greater than three are considered to be
                                  less-than-satisfactory establishments.      The system
                                  helps the supervisory authority identify banks that are
                                  in need of attention.

                Capital           A plan submitted to the appropriate federal banking
                restoration       agency by an undercapitalized insured depository
                plan              institution. A capital restoration plan specifies the steps
                                  the insured depository institution is to take to become

                      Material Loss Review of First Security National Bank            Page 18
Appendix 3
Glossary of Terms



                                  adequately capitalized, the levels of capital to be
                                  attained during each year in which the plan is in effect,
                                  how the institution is to comply with the restrictions or
                                  requirements then in effect, the types and levels of
                                  activities in which the institution is to engage, and any
                                  other information that the federal banking agency may
                                  require.

                Commercial        Loans for real property where the primary or
                real              significant source of repayment is from rental income
                estate loans      associated with the property or the proceeds of the
                                  sale, refinancing, or permanent financing of the
                                  property.     Commercial real estate loans included
                                  construction and real estate development, land
                                  development, and commercial properties such as
                                  office buildings and shopping centers.

                Compliance        The part of a financial institution examination that
                                  includes an assessment of how well the institution
                                  manages compliance with consumer protection and
                                  public interest laws and regulations, including the Bank
                                  Secrecy Act.

                Concentration As defined by OCC, a group of similar types of assets
                              or liabilities that, when aggregated, exceed 25 percent
                              of a bank’s core capital plus allowance for loan and
                              lease losses.        Concentrations may include direct,
                              indirect, and contingent obligations or large purchases
                              of loans from a single counterparty.




                      Material Loss Review of First Security National Bank          Page 19
Appendix 3
Glossary of Terms



                Consent          The title given by the OCC to a cease and desist order
                Order            that is entered into and becomes final through the
                                 board of directors’ execution, on behalf of the bank, of
                                 a stipulation and consent document. Its provisions are
                                 set out in article-by-article form and prescribes
                                 restrictions and remedial measures necessary to
                                 correct deficiencies or violations in the bank in order to
                                 return it to a safe and sound condition.




                     Material Loss Review of First Security National Bank           Page 20
Appendix 4
OCC’s Response




                 Material Loss Review of First Security National Bank   Page 21
    Section II

Report Distribution
Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Chairman
    Inspector General

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of First Security National Bank   Section II
(OIG-11-075)
